20
}

INDEX OF APPENDICES

B.

Ninth Circuit Memorandum, Johnson v. STORIX, INC., No. 18-56106..... la

C.

Ninth Circuit Order Denying Petition for Rehearing

4a

D.

District Court Order Awarding Attorneys’ Fees on Remand

5a

E.

District Court Second Amended Judgment

42a

F.

Ninth Circuit Memorandum, Johnson v. STORIX, INC., Case No. 1655439..........................................................................................................

45a

!

la
Ninth Circuit Memorandum, Johnson v. STORIX, INC., No. 18-56106

A.

UNITED STATES COURT OF APPEALS
FOR THE NINTH CIRCUIT
ANTHONY J. JOHNSON,
Plaintiff-counter defendant-Appellant,

No. 18-56106
D.C. No. 3:14-cvO 1873-H-BLM
MEMORANDUM*

v.
STORIX, INC., a California
Corporation, DefendantCounter-claimant-Appellee.

FILED FEB 5 2020
MOLLY C. DWYER,
CLERK

Appeal from the United States District Court
for the Southern District of California
Marilyn L. Huff, District Judge, Presiding
Submitted February 5, 2020**
Before: FARRIS, D.W. NELSON, and SILVERMAN, Circuit Judges.
Anthony Johnson (“Johnson”) appeals pro se the district court’s judgment
awarding $407,778.00 in attorneys’ fees to Storix, Inc. (“Storix”) on remand from
this court’s decision in Johnson v. Storix, Inc., No. 16-55439, 716 Fed. App’x. 628
(9th Cir. 2017) (“ Johnson /’).'
We have jurisdiction under 28 U.S.C. § 1291. We review a district court’s
award of attorneys’ fees for an abuse of discretion. Maljack Productions v.
GoodTimesHome Video Corp., 81 F.3d 881, 889 (9th Cir. 1996). We affirm.

This disposition is not appropriate for publication and is not precedent except as
provided by Ninth Circuit Rule 36-3.
** The panel unanimously concludes this case is suitable for decision without oral
argument. See Fed. R. App. P. 34(a)(2).
1 The prior panel declined this appeal as a comeback.

2a
Johnson /summarizes in detail the factual and procedural background of this
case. In Johnson /, a prior panel of this court held that while the district court did
not abuse its discretion in choosing to award fees to Storix, the amount of the award
was unreasonable “[blecause Johnson’s claims were neither unreasonable nor
frivolous,” and because “Johnson, who is now pro se, is an individual plaintiff,
rather than another company.” 716 Fed. App’x. at 630-31. This court therefore
remanded this matter to the district court to “reconsider the amount” of the
attorneys’ fee award. Id. at 631.
On remand, the district court reduced its initial fee award by 25%, awarding
Storix $407,778.00 in attorneys’ fees. The district court also awarded Storix post­
judgment interest from the date of the original judgment.
Given the scope of this court’s remand order, we conclude the district court
did not err in holding that it was not required to reexamine its original decision to
award attorneys’ fees to Storix under the Copyright Act, 17 U.S.C. § 505. See
Mendez-Gutierrez v. Gonzales, 444 F.3d 1168, 1172 (9th Cir. 2006) (explaining that
“a district court is limited by this court’s remand in situations where the scope of
the remand is clear”).
The district court did not abuse its discretion in making a 25% reduction of
the total fee award on remand. In accordance with this court’s instructions in
Johnson /, the district court properly considered the objective reasonableness of
Johnson’s claims and his pro se status, and adequately explained why any further
adjustment to Storix’s lodestar amount was not warranted. Hensley v. Eckerhart,

3a
461 U.S. 424, 437 (1983) (district court must provide a concise but clear explanation
of its reasons for the fee award).
The district court also did not abuse its discretion in awarding post-judgment
interest from the date of the original judgment under 28 U.S.C. § 1961 because this
court affirmed the district court’s decision to award fees and remanded only as to
the amount awarded. See Perkins v. Standard Oil Co. of Cal., 487 F.2d 672, 676 (9th
Cir. 1973) (holding that “[w]here a single item such as attorneys’ fees is reduced on
appeal, the district court’s determination should be viewed as correct to the extent it
was permitted to stand, and interest on a judgment thus partially affirmed should
be computed from the date of its initial entry”).

AFFIRMED.

/

>

4a
t

B.

Ninth Circuit Order Denying Petition for Rehearing
UNITED STATES COURT OF APPEALS
FOR THE NINTH CIRCUIT

ANTHONY J. JOHNSON,
Plaintiff-counter defendant-Appellant
v.
STORIX, INC., a California Corporation,
Defendant- counter-claimant-Appellee.

No. 18-56106
D.C. No. 3:i4-cv-01873-H-BLM
Southern District of
California, San Diego
ORDER
FILED FEB 21 2020
MOLLY C.
DWYER, CLERK

Before: FARRIS, D.W. NELSON, and SILVERMAN, Circuit Judges.
Appellant’s Petition for Panel Rehearing filed on February 11, 2020, is hereby
DENIED.

5a
C.

District Court Order Awarding Attorneys’ Fees on Remand
UNITED STATES DISTRICT COURT
SOUTHERN DISTRICT OF CALIFORNIA

ANTHONY JOHNSON,

Case No.: 3:14-cv-01873-H-BLM

ORDER AWARDING ATTORNEYS’
FEES
ON REMAND
v.
STORIX, INC., a California corporation, [Doc. No. 285.]
Plaintiff,

Defendant.
On November 16, 2016, after a jury trial, the Court entered judgment in favor
of Defendant Storix, Inc. (“Storix”) and against Plaintiff Anthony Johnson
(“Johnson”) on Johnson’s claim of copyright infringement, and awarded Storix
attorneys’ fees. (Doc. No. 246.) On December 19, 2017, the United States Court of
Appeals for the Ninth Circuit affirmed the jury’s verdict on liability, as well as the
Court’s decision to award Storix attorneys’ fees. Johnson v. Storix, Inc., 716 F. App’x

;

628, 631 (9th Cir. 2017), cert. pet. filed, No. 17-1503 (Apr. 25, 2018). However, the
Ninth Circuit held that the fees awarded were “unreasonable,” and remanded with
instructions for the Court “to reconsider the amount.” Id. at 632.
After receiving the Ninth Circuit’s mandate, (Doc. No. 283), the Court
ordered the parties to submit supplemental briefing on the amount of attorneys’
fees to be awarded to Storix. (Doc. No. 284.) After receiving and reviewing that
briefing, (see Doc. Nos. 285, 288, 289), the Court held a hearing on the matter on
August 6, 2018. Johnson appeared on his own behalf, while Storix was represented
!

6a
by Paul A. Tyrell and Sean M. Sullivan. The Court now turns to the sole remaining
issue on remand: the amount of reasonable attorneys’ fees to be awarded to Storix.
Background
The parties went to trial to determine whether Johnson—Storix’s former
CEO and majority shareholder—transferred his copyright in a software program
called SBAdmin to Storix in 2003 at the time of Storix’s incorporation. The jury
found that “Johnson transferred ownership of all pre-incorporation copyrights,
including SBAdmin Version 1.3, in writing from himself to StorixU” (Doc. No. 246.)
I. The Court’s Prior Fee Orders
On December 15, 2015, a jury rendered a special verdict in favor of Storix on
each of Johnson’s causes of action. (Doc. No. 154.) Storix then filed a motion seeking
$1,078,232.75 in attorneys’ fees and $236,943.96 in nontaxable costs pursuant to 17
U.S.C. § 505. (Doc. No. 165.) After receiving full briefing on the motion, the Court
held a fees hearing on February 23, 2016. (Doc. No. 192.) Thereafter, the parties
engaged in unsuccessful mediation. (Doc. Nos. 202, 204, 213.)
On June 16, 2016, the Supreme Court issued an opinion clarifying the
standard for awarding fees under the Copyright Act. See Kirtsaeng v. John Wiley &
Sons, Inc., 136 S. Ct. 1979 (2016). The Court then ordered the parties to fide
supplemental briefing addressing Kirtsaeng’s impact on Storix’s fees motion. (Doc.
No. 215.) Pursuant to the Court’s instructions, the parties each filed two
supplemental memoranda. (Doc. Nos. 217, 218, 223, 224.) On August 15, 2016, th6
Court held a second hearing on Storix’s fee motion. (Doc. No. 229.)

7a
On August 17, 2016, the Court granted Storix’s fee request in part and denied
it in part. (Doc. No. 230.) In accordance with Kirtsaeng, the Court considered
“Johnson’s motivations, the reasonableness of [his] positions, the degree of . . .
Storix’s success, the need to advance considerations of compensation and
deterrence, and the frivolousness of . . . Johnson’s litigation positions and tactics.”
(Id. at 4.) With respect to Johnson’s motivations in bringing this suit, the Court
noted that “Johnson took a number of actions demonstrating that his motivation
was not simply to von damages for alleged copyright infringement . . . but also to
wrest control of [Storix] from its majority shareholders and to force the company to
‘close its doors.’” (Id. at 5-6 (citation omitted).) Specifically, the Court recounted an
email Johnson sent to several Storix directors and employees entitled “Buckle up
boys!” where Johnson stated:
That means, when I win the very near copyright decision, which we all
know I will, the company will be paying back all my legal expenses.
And you will be paying the company back, for mine and its expenses.
Here's your one option. Get the f[ ... ] out. Give your stock back to the
company, resign your board seat, terminate your employment. Leave
with just what you gave me. Only then your name will be removed
from the derivative! ]action, giving you some hope of keeping your
homes and perhaps finding other jobs. But once this is filed, all options
are off the table. The damages I will be granted in the copyright case
will transfer from the company to YOU.

;

(Doc. No. 66-1, Huffman Decl. Ex. A, at 5-9.) The Court also noted that Johnson
took other actions like sending an “announcement to . . . Storix’s customers in which
[Johnson] demanded that the customers cease paying . . . Storix for the use of its
software,” and sending “an email to one of . . . Storix’s employees declaring a hope
that [Johnson’s] announcement to the company’s customers would result in . .

8a
Storix running out of money so that it would be unable to continue defending the
lawsuit” and threatening “litigation that would cause the employee to lose his
, home.” (Doc. No. 230 at 5-6.)
The Court then turned to the objective reasonableness of Johnson’s litigation
positions. The Court noted that, as recounted above, “Johnson’s litigation tactics
became increasingly unreasonable as the case progressed.” (Id. at 6.) The Court
further noted that:
On March 15, 2004, Plaintiff Johnson signed an annual report (the
‘Annual Report’) that stated, ‘2003 represented the first 10 months in
the life of Storix as a Corporation. Prior to 2003, Storix Software was a
sole proprietorship. All assets from Storix Software were transferred to
Storix Inc, as of its incorporation of February 24, 2003.’ Plaintiff
Johnson survived summary judgment by arguing that the Annual
Report did not memorialize his intent to transfer the copyright in
SBAdmin to Defendant Storix.
At trial, Defendant Storix adduced overwhelming evidence
demonstrating that the Annual Report did in fact memorialize Plaintiff
Johnson’s intent to transfer the copyright in SBAdmin. For example,
shortly after the 2003 incorporation, the ‘clickwrap’ license for
SBAdmin stated, ‘Copyright (c) 1999-2003 Storix, Inc.’ On January 29,
2004, Plaintiff Johnson sent an email insisting that a distributor
refrain from suppressing a copyright statement in the software
reading, ‘Copyright (c) 1999-2003 Storix, Inc.’ On February 17, 2004,
and on March 7, 2007, Plaintiff Johnson signed distribution
agreements that stated, ‘STORIX shall retain and own all right, title
and interest in [SBAdmin] . . . [and] reserves to itself all . . . benefits
afforded under U.S. copyright law
Significantly, on January 24, 2006, Plaintiff Johnson stated in an
email to a German lawyer who was advising Storix in a trademark
dispute, ‘It is not entirely possible for us to completely abohsh the use
of STORIX with our product, as it is the company that owns the
copyright to the product, documentation, web site and support.’
Plaintiff Johnson did not state that Defendant Storix was using the
copyright pursuant to a license.

9a
Similarly, on March 26, 2007, Plaintiff Johnson sent an email to his
employees instructing them to include language on the Storix website
and software documentation that read, ‘Copyright Storix, Inc. 19992007 USA.’ On August 20, 2010, Plaintiff Johnson sent an email to the
Oracle Corporation that stated, ‘The company acquiring Storix will
gain the most comprehensive disaster recovery product available for
any operating system on the market.’
On August 26, 2010, Plaintiff Johnson made a submission to the IBM
Corporation in which he proposed selling Storix to IBM and stated,
‘IBM would gain the most comprehensive disaster recovery product
available for any UNIX or Linux operating system on the market
In summary, over the course of many years, Plaintiff Johnson
repeatedly and consistently stated to third parties that Defendant
Storix owned the copyright in SBAdmin, which was the company’s
most significant asset.
When confronted at trial with the representations he made to third
parties when he sought to sell Storix, Inc., Plaintiff Johnson stated, ,
‘Yeah, and I lied. I admit it. I bed.’ The evidence Defendant Storix
adduced confirmed that the Annual Report meant what it said: when
Plaintiff Johnson said he was transferring ‘all assets,’ he meant ‘all
assets,’ including the copyright. In the face of this overwhelming
evidence, it was unreasonable for Plaintiff Johnson to maintain that he
did not intend to transfer the copyright.
(Id. at 7-9 (alterations added, citations omitted).)
The Court nevertheless concluded that, pursuant to governing Ninth Circuit
precedent, Johnson’s litigation positions were objectively reasonable as a matter of
law because they hinged on disputed material facts that reached a jury, and the
Court gave substantial weight to that assessment. (Id. at 9 (citing VMG Salsoul,
LLC v. Ciccone, 824 F.3d 871, 887 (9th Cir. 2016)).) In Kirtsaeng, the Supreme
Court held that a district court must give “substantial weight to the objective
(un)reasonabless of a losing party’s litigating position” in deciding whether to award
attorneys’ fees under the Copyright Act. 136 S. Ct. at 1986. Two weeks before
Kirtsaeng was issued, the Ninth Circuit held that if “a plaintiff has a claim that

10a
hinges on disputed facts sufficient to reach a jury, that claim necessarily is
reasonable because a jury might decide the case in the plaintiffs favor.” VMG
Salsoul, 824 F.3d at 887. Bound by VGM Salsoul. the Court determined that
. Johnson’s litigation positions were objectively reasonable as a matter of law, despite
the jury’s assessment that Johnson’s litigation positions were unreasonable in
fact.1
The Court next considered the degree of success obtained by Storix. The
Court noted that Storix won on every material issue submitted to the jury, and
•y.

therefore concluded that “the degree of success factor weighs in favor of. . . Storix.”
(Id. at 10.)
Thereafter, the Court evaluated whether a fee awarded was needed to
advance considerations of compensation and deterrence. The Court concluded that
Johnson “engaged in a variety of behaviors that should be deterred.” (Id.) The Court
noted that:
On January 16, 2016, a month after the jury returned its verdict
against him, Plaintiff Johnson sent an email to a Storix employee
asking the employee to secretly communicate with him about what was
happening inside the company and to delete their correspondence.
That email also indicated that Plaintiff Johnson had been working on
revising the SBAdmin software and that he had a marketable product.
Additionally, the email stated, ‘[Storix's leadership] tell you they now
own the copyright, but they don't.’ In light of the jury's verdict stating
1 The Court also followed VGM Salsoul’s holding that cases that proceed to trial are always
objectively reasonable despite that holding’s tension with Kirtsaeng’s observations that: (i)
an attorneys’ fees award in a copyright case is meant to give a litigant with a meritorious
case “an incentive to litigate the case all the way to the end;” and (ii) “a court may not treat
prevailing plaintiffs and prevailing defendants any differently!"..]” 136 S. Ct. at 1985-86.

11a
that Defendant Storix owns all copyrights to SBAdmin, Defendant
Storix sent a cease and desist letter to Plaintiff Johnson demanding
that he cease copying, distribution, modification, or sale of any version
of SBAdmin. On January 22, 2016, Plaintiff Johnson stated that he
would not return materials related to SBAdmin and declined to
respond to the demand that he cease copying, distribution,
modification, or sale of SBAdmin.
Plaintiff Johnson's pre-judgment litigation tactics should also be
deterred. It was inappropriate for Plaintiff' Johnson to tell Defendant
Storix’s shareholders to ‘get the [expletive] out’ and to attempt to
coerce them into surrendering control of the company. It was
inappropriate for Plaintiff Johnson to demand that Defendant Storix’s
customers stop paying for the use of its software in an attempt to
prevent Defendant Storix from having enough money to continue
defending the lawsuit. It was also inappropriate for Plaintiff Johnson
to threaten Defendant Storix’s directors with the loss of their homes
while he was telling the customers to stop paying Storix to undermine
the company.
(Id. at 10-11 (citations omitted).)
Finally, the Court considered whether Johnson’s case was frivolous. The
Court concluded that the case was not frivolous, as it contained disputed facts that
required resolution by a jury. (Id. at 12.)
I

Taking all of these factors together, the Court concluded that an award of
attorneys’ fees to Storix was appropriate under the circumstances. The Court
concluded that “Johnson’s motivation, the degree of ... Storix’s success, and the
' need to advance considerations of compensation and deterrence all weighted]
heavily in . . . Storix’s favor.” (Id. at 13.) The Court noted that these factors
outweighed the fact that Johnson’s case survived summary judgment, even after the
Court gave substantial weight to that fact. (Id.) See Kirtsaeng, 136 S. Ct. at 1988-

12a
89 (holding that “a court may order fee-shifting because of a party’s litigation
misconduct, whatever the reasonableness of his claims or defenses”).
After deciding that a fee award was warranted, the Court exercised its
discretion to reduce the fees requested by Storix in order to narrowly tailor the
award to Johnson’s misconduct. Rather than awarding fees for the entirety of this
litigation, the Court granted Storix only the fees it incurred from October 6, 2015—
the date of Johnson’s “Buckle up boys!” email—through the end of trial. (Id.) The
Court excluded fees associated with: (i) opposing several of Johnson’s motions in
limine; (ii) mediation in the spring of 2016; (iii) and the supplemental briefing the
)

Court ordered in light of Kirtsaeng. (Id. at 14.) The Court also declined to award
any costs beyond those taxable pursuant to 28 U.S.C. § 1920. (Id.) The Court
ordered Storix to submit supplemental briefing regarding the specific amount to be
awarded in light of the Court’s fees Order, and further considered Johnson’s
response. (Doc. Nos. 234, 239, 240.) The Court also denied Johnson’s motion for
reconsideration. (Doc. No. 238.)
After reviewing the parties’ supplemental submissions, the Court issued a
final Order awarding Storix $543,704, less than half of the fees and costs it had
originally requested. (Doc. No. 241.) The Court found that Storix’s timesheets were
professional and detailed, that Storix’s attorneys had not spent excessive time or
r used excessive staff litigating the case, and that Johnson was not entitled to a fee
offset in fight of the Storix shares that he owns. (Id. at 5-9.) The Court further
awarded fees incurred for the litigation necessary to resolve Storix’s attorneys’ fees

13a
motion. (Id.) The Court entered an amended judgment reflecting the fee award on
November 16, 2016.2 (Doc. No. 246.)
II.

The Ninth Circuit’s Opinion
Johnson appealed to the Ninth Circuit, and that court affirmed in part and

reversed in part the Court’s judgment. 716 F. App’x at 630. The Court of Appeals
rejected each of Johnson’s challenges to the jury’s verdict, and held that the Court
“did not abuse its discretion in choosing to award fees to Storixl.]” Id. at 631-32.
However, the panel further held “that the amount of the award was unreasonable.”
Id. at 632. The panel observed that because “Johnson’s claims were neither
unreasonable nor frivolous, the amount of $543,704 was excessive.” Id. The panel
further observed that Johnson “is an individual plaintiff, rather than another
company,” and that the “‘relative financial strength of the parties is a valid
consideration’ in determining ‘what amount is reasonable.’” Id. (quoting Lieb v.
j

Tonstone Indus.. Inc.. 788 F.2d 151, 156 (3d Cir. 1986)). While the Ninth Circuit
: declined to “‘pass judgment on what the award should be,”’ it remanded with
instructions for the Court to “reconsider the amount.” Id- (quoting Woodhaven
Homes & Realty. Inc, v. Hotz. 396 F.3d 822, 824 (7th Cir. 2005)).

2 The Court stayed execution of the judgment pending appeal on the condition that
Johnson agreed to post a supersedeas bond in the full amount of the judgment. (Doc. Nos.
256, 274.) Johnson posted the required bond on June 30, 2017. (Doc. No. 273.) The Ninth
Circuit denied Johnson’s motion to release the bond. (Doc. No. 276.)

14a
HI.

The Parties’ Arguments
The parties submitted supplemental briefing addressing the Ninth Circuit’s

decision. (Doc. Nos. 285, 288, 289.) Johnson argues that the Court should award no
fees at all. (Doc. No. 288 at 19.) Storix argues that the Court’s original award was
fundamentally reasonable, and that the Court should therefore impose no more
than a 10% reduction on remand. (Doc. No. 285 at 19.) Storix also requests post­
judgment interest. (Id. at 20.)
As a preliminary matter, the Court denies Johnson’s request that no fees be
awarded. The Court previously decided that an award of attorneys’ fees to Storix
was warranted on the facts of this case, a conclusion that the Ninth Circuit
affirmed. 716 F. App’x at 632. The Ninth Circuit’s limited remand “to reconsider the
amount” of fees to be awarded to Storix, id., is not capacious enough to permit the
Court to reexamine whether to award fees at all.3 See, e.g., In re Sanford Fork &
Tool Co.. 160 U.S. 247, 255 (1895) (“When a case has been once decided by this court
on appeal, and remanded to the circuit court, whatever was before this court, and
disposed of by its decree, is considered as finally settled .... [The lower] court
cannot vary it, or examine it for any other purpose than execution; or give any other
or further relief; or review it, even for apparent error, upon any matter decided on
appeal . . . .”); Mendez-Gutierrez v. Gonzales. 444 F.3d 1168, 1172 (9th Cir. 2006)

3 The Court recognizes its discretion to award a low or nominal sum of attorneys’ fees.
However, as explained throughout this Order, the Court concludes that a minimal fee
award would be inappropriate in light of the facts of this case.

-

15a
(“[W]e have repeatedly held, in both civil and criminal cases, that a district court is
limited by this court’s remand in situations where the scope of the remand is
clear.”); Planned Parenthood of Columbia/Willamette Inc, v. Am. Coalition of Life
Activists. 422 F.3d 949, 966 (9th Cir. 2005).
Further, based on the procedural history recounted above, the Court
concludes that an award of reasonable attorney fees to Storix is justified in light of
Johnson’s unreasonable and inappropriate litigation conduct. Accordingly, the
Court will endeavor to comply with the Ninth Circuit’s remand instructions to
reduce Storix’s award. In doing so, the Court will attempt “to do rough justice, not
to achieve auditing perfection,” taking into account the fact that Johnson “is an
individual plaintiff, rather than another company” and that “Johnson’s claims were
neither unreasonable nor frivolousU” 716 F. App’x at 632 (citations and internal
quotation marks omitted).
Discussion
I. Attorneys’ Fees
The Copyright Act allows a district court, “in its discretion,” to award a
reasonable attorney’s fee to the prevailing party” in a copyright case. 10 U.S.C. §
505. “When calculating the amount of attorney fees to be awarded in a litigation,
the district court applies the lodestar method, multiplying the number of hours
reasonably expended by a reasonable hourly rate.” Rvan v. Editions Ltd. W., Inc.,
786 F.3d 754, 763 (9th Cir. 2015). “When a party seeks an award of attorneys’ fees,
that party bears the burden of submitting evidence of the hours worked and therate paid. In addition, that party has the burden to prove that the rate charged is in

16a
line with the prevailing market rate of the relevant community.” Carson v. Billings
Police Den’t, 470 F.3d 889, 891 (9th Cir. 2006) (citations and quotation marks
omitted). The Court may adjust the lodestar figure in light of twelve factors:
(l) the time and labor required; (2) the novelty and difficulty of the
questions involved; (3) the skill requisite to perform the legal service
properly; (4) the preclusion of other employment by the attorney due to
acceptance of the case; (5) the customary fee; (6) whether the fee is
fixed or contingent; (7) time limitations imposed by the client or the
circumstances; (8) the amount involved and the results obtained; (9)
the experience, reputation, and ability of the attorneys! (10) the
“undesirability” of the case; (ll) the nature and length of the
professional relationship with the client; and (12) awards in similar
cases.
Carter v. Caleb Brett LLC. 757 F.3d 866, 869 (9th Cir. 2014).
In Kirtsaeng, the Supreme Court held that a district court must give
“substantial weight to the objective (un)reasonableness of a losing party’s litigating
position” in fashioning an award of attorneys’ fees. 136 S. Ct. at 1986. However,
“objective reasonableness can only be an important factor in assessing fee
applications—not the controlling one.” Id. at 1988. The Copyright Act “confers broad
discretion on district courts and, in deciding whether to fee-shift, they must take
into account a range of considerations beyond the reasonableness of litigating)
positions.” Id- “For example, a court may order fee-shifting because of a party’s
litigation misconduct, whatever the reasonableness of his claims or defenses.” Id. at
1988-89; see also Snanski Enters.. Inc, v. Telewizia Polska S.A., 278 F. Supp. 3d
210, 215-16 (D.D.C. 2017) (awarding attorney fees due in part to litigation
misconduct in a copyright case).

17a
The Court has thoroughly reviewed the Ninth Circuit’s opinion, the parties’
arguments, the relevant law, and the Court’s prior fees Orders.4 After undertaking
this examination, the Court has decided to apply a 25% across-the-board reduction
to Storix’s original fee award. The Ninth Circuit has held “that a district court may
reduce attorneys’ fees by a percentage, so long as the court sets forth clear and
concise reasons for adopting this approach.” Camacho v. Bridgeport Fin., Inc., 523
F.3d 973, 982 (9th Cir. 2008); see also Gonzalez v. City of Maywood, 729 F.3d 1196,
1199 (9th Cir. 2013); Schwartz v. Sec’v of Health & Human Servs., 73 F.3d 895, 909
(9th Cir. 1995); Beastie Bovs v. Monster Energy Co.. 112 F. Supp. 3d 31, 57
(S.D.N.Y. 2015).
In this case, a percentage based approach is the most effective way for the
Court to fully and faithfully comply with the Ninth Circuit’s mandate. Storix’s
attorneys submitted clear and professional timekeeping reports justifying the fees
they sought, and did not either charge excessive rates, overstaff this “betthecompany” case, or spend excessive time litigating it. There is thus no fair basis for
the Court to further adjust the lodestar figure in complying with the Ninth Circuit’s
directive to reduce Storix’s award.
Moreover, the Ninth Circuit ordered the Court to use an essentially equitable
approach in determining Storix’s fees—“to do rough justice, not to achieve auditing
perfection.” 716 F. App’x at 632 (citation and internal quotation marks omitted). A
percentage based approach permits the Court to take into account the objective
4

The Court attaches its prior Orders to this Order as Exhibits A and B, respectively.

18a
reasonableness of Johnson’s claims and his status as an individual without unfairly
impugning the work done by Storix’s attorneys.
The Court concludes that reducing Storix’s fees by 25% is appropriate.
Although Johnson is an individual now proceeding pro se, he was represented by
counsel during all proceedings for which the Court awarded attorneys’ fees.5
Further, while Johnson’s claims were reasonable enough to

survive summary

judgment, Johnson’s conduct during this litigation went well beyond what was
necessary to protect his asserted legal interests. There is simply no justification for
Johnson’s decisions to send threatening emails to Storix employees, and to try to
interfere with Storix’s client relationships in the explicit hope of leaving Storix too
financially crippled to defend this lawsuit. Nevertheless, this deterrence must not
go so far that it deters plaintiffs (like Johnson) with reasonable claims from filing
suit at all. And the Court applies the Ninth Circuit’s guidance to take into account
5
Johnson was originally represented by Gary Eastman of Eastman & McCartney, LLP. !
On January 12, 2016, the Court granted Johnson’s motion to substitute Andrew Skale of
Mintz Levin Cohn Ferris Glovsky & Popeo, PC, a large 500-attorney law firm ranking in
the Am Law 100, as his attorney of record. (Doc. Nos. 172, 173.) On May 5, 2017, Johnson
parted ways with his attorneys from Mintz Levin, (Doc. Nos. 265, 266), and subsequently
retained Barnard F. King, III as his counsel of record. (Doc. No. 267.) Johnson began
appearing pro se in this Court on March 28, 2018. (Doc. Nos. 280, 281.) The Court awarded
attorneys’ fees for litigation that took place between October 6, 2015 and November 16,
2016, when Johnson was variously represented by Eastman & McCartney and Mintz Levin,
respectively.
As Storix correctly points out, Johnson was represented by three attorneys (Gary
Eastman, Tifanie Nelson, and Joseph Harkins) at trial, as compared with only two
attorneys for Storix (Paul Tyrell and Sean Sullivan). (Doc. No. 148.) Johnson also sued his
attorneys from Mintz Levin—who handled his posttrial representation—in the San Diego
County Superior Court after paying them $375,000 for nine months of legal work. (Doc. No.
285-1, Tyrell Deck, Ex. B.) The amount that Johnson paid for his own highend legal
representation post-trial undercuts any argument that, the fees Storix requests are
unreasonably inflated.

19a
the fact that Johnson “is an individual plaintiff, rather than another company.” 716
F. App’x at 632. The Court determines that applying a 25% reduction in Storix’s
fees leaves an award that is sufficient to deter Johnson’s conduct, without being
excessive or unreasonable under the circumstances.
The Court’s 25% reduction also takes into account the Court’s decision, upon
further reflection, that awarding Storix attorneys’ fees for its four unsuccessful
motions in limine (Doc. Nos. 134, 135, 136, 137), and its post-verdict briefing on its
motion for attorneys’ fees and nontaxable costs, would not advance the purposes
animating the Court’s fee award. As the Court has previously explained, Storix’s fee
award was made after balancing Johnson’s improper motivations in bring this suit,
the need to deter his inappropriate litigation conduct, and Storix’s success, with the
fact that Johnson’s claims were objectively reasonable as a matter of law. (Doc. No.
230 at 13.) The fees Storix incurred for its unsuccessful motions in limine and its
attorneys’ fees briefing did not stem from Johnson’s improper conduct, or Storix’s
success on the merits of this litigation, and thus granting those fees would not
further the Court’s purposes in making the award.
The Court accordingly reduces Storix’s attorneys’ fees from $543,704 to
$407,778.
II. Post-Judgment Interest
Federal law provides that “[ijnterest shall be allowed on any money judgment
in a civil case recovered in a district court.” 28 U.S.C. § 1961(a). “Such interest shall
be calculated from the date of the entry of the judgment, at a rate equal to the

20a
weekly average 1-year constant maturity Treasury yield, as published by the Board
of Governors of the Federal Reserve System, for the calendar week preceding the
date of the judgment.” Id. “Under 28 U.S.C. § 1961, the award of post judgment
interest on a district court judgment is mandatory.” Barnard v. Theobald, 721 F.3d;
1069, 1078 (9th Cir. 2013); Ford v. Alfaro. 785 F.2d 835, 842 (9th Cir. 1986). “Where
a single item such as attorneys’ fees is reduced on appeal, the district court’s
determination should be viewed as correct to the extent it was permitted to stand,
and interest on a judgment thus partially affirmed should be computed from the
date of its initial entry.” Perkins v. Standard Oil Co. of Cal.. 487F.2d672, 767 (9th
Cir. 1973). Accordingly, the Court awards Storix post-judgment interest on the
reduced attorneys’ fees award at a rate of 0.695% running from November 16, 2016
until the date of payment. The interest shall be compounded annually. 28 U.S.C. §
1961(b).
Conclusion
For the foregoing reasons, the Court: (i) apphes a 25% across-the-broad
equitable reduction to Storix’s attorneys’ fees; and (ii) awards Storix post-judgment
interest. The Court will separately issue an amended judgment reflecting the fees
and interest owed to Storix.
IT IS SO ORDERED.
DATED: August 7, 2018
MARILYN L. HUFF, District Judge
UNITED STATES DISTRICT COURT

1

21a

EXHIBIT A

j

j

22a
UNITED STATES DISTRICT COURT
SOUTHERN DISTRICT OF CALIFORNIA
ANTHONY JOHNSON,
Plaintiff and CounterDefendant,
v.
STORIX, INC., a California corporation,
Defendant and CounterClaimant.

Case No.: 3:i4-cv-01873H-BLM
ORDER GRANTING IN
PART AND DENYING
IN PART
DEFENDANT'S
MOTION FOR
ATTORNEYS' FEES
AND COSTS
[Doc. No. 165.1

On August 8, 2014, Plaintiff and Counter-Defendant Anthony Johnson
("Plaintiff Johnson") filed a complaint alleging copyright infringement of a software
program. (Doc. No. 1.) On September 19, 2014, Defendant and Counter-Claimant
Storix, Inc .. ("Defendant Storix") filed an answer and counterclaim seeking a
declaratory judgment that it did not infringe any copyright and that it owned all
copyrights in the software. (Doc. No. 5.) On December 8, 2015, the action came
before the Court for a jury trial. (Doc. No. 142.) On December 15, 2015, the jury
returned a verdict in favor of Defendant Storix. (Doc. No. 160.) On December 18,
2015, the Court entered judgment in favor of Defendant Storix and awarded costs to
Defendant Storix as provided by law. (Doc. No. 164.)
On January 4, 2016, Defendant Storix filed its bill of costs. (Doc. No. 166.) On
January 25, 2016, the Clerk granted Defendant Storix taxable costs pursuant to 28
U.S.C. § 1920 amounting to $11,414.64. (Doc. No. 178.)

23a
On January 4, 2016, Defendant Storix filed a motion pursuant to 17 U.S.C. §
505 seeking costs not taxable under 28 U.S.C. § 1920 as well as attorneys' fees.
(Doc. No. 165.) On January 29, 2016, Plaintiff Johnson opposed Defendant Storix's
motion for costs and fees. (Doc. No. 180.) On February 12, 2016, Defendant Storix
replied to Plaintiff Johnson's opposition.1 (Doc. No. 184.) On February 23, 2016, the
Court held, a hearing on the motion. Andrew Skale and Anne-Marie Dao appeared
for Plaintiff Johnson, and Paul Tyrell and Sean M. Sullivan appeared for Defendant
Storix.
At the request of the parties, on February 25, 2016, the Court permitted
mediation before a magistrate judge. (Doc. No. 194.) The parties participated in
mediation sessions on March 29, 2016 and April 4, 2016. (Doc. Nos. 202, 204.) On
May 5, 2016, the magistrate judge issued a minute entry indicating that the parties
were unable to reach a settlement. (Doc. No. 213.)
On June 16, 2016, the Supreme Court issued an opinion in Case No. 15-375,
Kirtsaenp- v John Wiley & Sons. Inc. At the Court's request, each party filed a
memorandum explaining how that decision should impact the Court's analysis of
Defendant's motion for costs and fees on July 18, 2016. (Doc. Nos. 217, 218.) Each

1 On January 29, 2016, Defendant Storix filed a supplement to its motion for fees and
costs. (Doc. No. 179.) On February 3, 2016, Plaintiff Johnson objected to the supplement.
(Doc. No. 181.) On February 19, 2016, Plaintiff Johnson opposed the supplement. (Doc. No.
188.) On February 19, 2016, Defendant Storix filed a second supplement to its motion for
fees and costs. (Doc. No. 189.) On February 22, 2016, Plaintiff Johnson objected to the
second supplement. (Doc. No. 190.) On February 22, 2016, the Court granted Plaintiff
Johnson until March 4, 2016, to file a response to the second supplement, but Plaintiff did
not file a response. (Doc. No. 191.)

24a
party filed a response to the other party's memorandum on August 1, 2016. (Doc.
Nos. 223, 224.) On August 2, 2016, Plaintiff Johnson objected to Defendant StorixV
response memorandum.2

(Doc. No. 227.) On August 15, 2016, the Court heard

supplemental argument on the motion. Andrew Skale and Ben Wagner appeared for
Plaintiff, and Paul Tyrell and Sean Sullivan appeared for Defendant. For the
reasons that follow, the Court grants in part and denies in part the motion for costs
and fees.
Discussion
I.

Legal Standards
The Copyright Act states, "In any civil action under this title, the court in its

discretion may allow the recovery of full costs by or against any party other than
the United States or an officer thereof. Except as otherwise provided by this title,
the court may also award a reasonable attorney's fee to the prevailing party as part
of the costs." 17 U.S.C. § 505. In its recent opinion in Kirtsaeng v. John Wiley &
Sons. Inc., the Supreme Court confirmed that there are a number of nonexclusive
factors that courts may consider in determining whether a proposed award
"advances the Copyright Act's goals" of "encouraging and rewarding authors’
creations while also enabling others to build on that work." 136 S. Ct. 1979, 1986
(2016). These factors include motivation, the objective unreasonableness of the
losing party's factual and legal arguments, the degree of success obtained, the need,

2
The Court has considered all of the objections raised by the parties in connection with
this motion. To the extent the objections are valid, the Court sustains them. To the extent
the objections are invalid, the Court overrules them.

25a
in particular circumstances, to advance considerations of compensation and
deterrence, and frivolousness. Id. at 1985; Fogertv v. Fantasy, Inc., 510 U.S.
517,534 18 n.19 (1994); Omega S.A. v. Costco Wholesale Corn 776 F.3d 692, 695-96
(9th Cir. 2015).
In weighing these factors, Courts must "give substantial weight to the
objective reasonableness of the losing party’s position." Kirtsaeng. 136 S. Ct. at
1983. An unsuccessful position is not necessarily objectively unreasonable, and
courts must not "confuseG the issue of liability with that of reasonableness." Id. at
1988. Reasonableness or unreasonableness is not dispositive, and courts "must also
give due consideration to all other circumstances relevant to granting fees." Id. at
1983. Courts retain "discretion, in light of those factors, to make an award even
when the losing party advanced a reasonable claim or defense." Id. "There is no
precise rule or formula for making these determinations .... " Fogertv, 510 U.S. at
534. "Prevailing plaintiffs and prevailing defendants are to be treated alike." Id. at
534; see also Perfect 10. Inc, v. CCBill LLC, 488 F.3d 1102, 1120 (9th Cir. 2007).
"When calculating the amount of attorney fees to be awarded in a litigation,
the district court applies the lodestar method, multiplying the number of hours
reasonably expended by a reasonable hourly rate." Ryan v. Editions Ltd. W., Inc.,
786 F.3d 754, 763 (9th Cir. 2015). "When a party seeks an award of attorneys’ fees,
that party bears the burden of submitting evidence of the hours worked and the
rate paid. In addition, that party has the burden to prove that the rate charged is in
line with the prevailing market rate of the relevant community." Carson v. Billings

26a
Police Dep't, 470 F.3d 889, 891 (9th Cir. 2006) (citations and quotation marks
omitted). The Court may adjust the lodestar figure in light of twelve factors:
(l) the time and labor required; (2) the novelty and difficulty of the
questions involved; (3) the skill requisite to perform the legal service
properly; (4) the preclusion of other employment by the attorney due to
acceptance of the case; (5) the customary fee; (6) whether the fee is
fixed or contingent; (7) time limitations imposed by the client or the
circumstances; (8) the amount involved and the results obtained; (9)
the experience, reputation, and ability of the attorneys; (10) the
"undesirability" of the case; (ll) the nature and length of the
professional relationship with the client; and (12) awards in similar
cases.
Carter v. Caleb Brett LLC. 757 F.3d 866, 869 (9th Cir. 2014). In addition to
attorneys' fees, "district courts may award otherwise non-taxable costs, including
those that lie outside the scope of [28 U.S.C.] § 1920, under [17 U.S.C.] § 505."
Twentieth Century Fox Film Corn, v. Entm't Distrib.. 429 F.3d 869, 885 (9th Cir.
2005).
II. Recovery of Fees
In evaluating whether to award attorneys' fees, the Court considers Plaintiff
Johnson's motivations, the reasonableness of Plaintiff Johnson's positions, the
degree of Defendant Storix' s success, the need to advance considerations of
compensation and deterrence, and the fxivolousness of Plaintiff Johnson's litigation
positions and tactics. Kirtsaeng. 136 S. Ct. at 1985; Fogertv, 510 U.S. at 534 n.19;
Omega S.A., 776 F.3d at 695-96.
A. Motivation
The Court first considers Plaintiff Johnson's motivation in bringing the case.
Kirtsaeng. 136 S. Ct. at 1985; Omega S.A., 776 F.3d at 695. "[A] court's discretion

27a
may be influenced by the plaintiff's culpability in bringing or pursuing the action,
but blameworthiness is not a prerequisite to awarding fees to a prevailing
defendant." Fantasy. 94 F.3d at 558. In this case, Plaintiff Johnson took a number
of actions demonstrating that his motivation was not simply to win damages for
alleged copyright infringement. On September 26, 2015, Plaintiff Johnson sent an
email to several Storix directors and employees titled "Buckle up boys!" (Doc. No.
66-1, Huffman Decl. Ex. A, at 5-9.) The email stated in part:
That means, when I win the very near copyright decision, which we all
know I mil, the company will be paying back all my legal expenses.
And you will be paying the company back, for mine and its expenses.

Here’s your one option. Get the f[ ... ] out. Give your stock back to the
company, resign your board seat, terminate your employment. Leave
with just what you gave me. Only then your name will be removed
from the derivativeG action, giving you some hope of keeping your
homes and perhaps finding other jobs. But once this is filed, all options
are off the table. The damages I will be granted in the copyright case
will transfer from the company to YOU.

0d.)
Plaintiff Johnson also stated in that email that he would send an
announcement to Defendant Storix's customers and tell them, among other things,
that the software they purchased from Defendant Storix infringed on Plaintiff
Johnson's copyright. (Id.) On October 6, 2015, Plaintiff Johnson sent the
announcement to Defendant Storix's customers in which he demanded that the
customers cease paying Defendant Storix for the use of its software. (Doc. No. 66-1,
Huffman Decl. Ex. B, at 10-11.) On October 7, 2016, Plaintiff Johnson sent an email
to one of Defendant Storix's employees declaring a hope that his announcement to

28a
the company's customers would result in Defendant Storix running out of money so
that it would be unable to continue defending the lawsuit. (Doc. No. 66*1, Huffman
Decl. Ex. D, at 16.) In that email, Plaintiff Johnson also threatened litigation that
would cause the employee to lose his home. (Id.)
"Courts have held a plaintiff demonstrates bad faith when alleging [a]
copyright claim to secure benefits other than merely addressing grievances."
Brighton Collectibles. Inc, v. Pedre Watch Co.. No. 3;ll-CV-00637 AJB WVG, 2014
WL29008, at *4 (S.D. Cal. 6 Jan. 2, 2014) (citing Maliack Prod.. Inc, v. GoodTimes
Home Video Com., 81 F.3d 881, 889 (9th Cir.1996)). In this case, Plaintiff Johnson
demonstrated that his motives were not merely to secure a copyright infringement
judgment, but also to wrest control of the company from its majority shareholders
and to force the company to "close its doors." (Doc. No. 66-1, Huffman Decl. Ex. D, at
16.) Accordingly, Plaintiff Johnson’s motivations weigh in favor of Defendant
Storix's request for attorneys' fees.3

3 The Court recognizes that Plaintiff Johnson has had a difficult time realizing that he no
longer controls Defendant Storix and its product. Plaintiff Johnson created SBAdmin, a
software program for backing up files stored on computers, in 1998 and 1999 while he was a
sole proprietor doing business as Storix Software. (Doc. No. 145, Trial Transcript Vol. I, at
82-90.) In 2003, Plaintiff Johnson incorporated Defendant Storix, and he transferred assets
to Defendant Storix. (Doc. No. 145, Trial Transcript Vol. I, at 138.) From 2003 to 2011,
Plaintiff Johnson was the president and sole shareholder of Defendant Storix, a corporation
that existed primarily to sell copies of SBAdmin to customers. In 2011, due to illness,
Plaintiff Johnson stepped down from his leadership position and gifted sixty percent of
Defendant Storix' s outstanding stock to certain employees, thereby reducing Plaintiff
Johnson's ownership in Defendant Storix t,o forty percent. (Doc. No. 145, Trial Transcript
Vol. I, at 159-71.) Now a minority shareholder, Plaintiff Johnson desires to exert majority
control over the company, but this desire does not reflect the reality of his current business
situation.

29a
B. Objective Reasonableness
In considering whether to award attorney fees, the Court gives "substantial
weight" to its assessment of Plaintiff Johnson's reasonableness over the course of
the litigation. Kirtsaeng, 136 S. Ct. at 1983. Plaintiff Johnson's litigation tactics
became increasingly unreasonable as the case progressed. In his September 26,
2015, "Buckle up boys!" email, Plaintiff Johnson threatened Storix employees and
shareholders with ruinous litigation if they did not surrender control of the
company to him and resign from their jobs. (Doc. No. 66-1, Huffman Decl. Ex. A, at
5-9.) In his October 6, 2015, announcement to Storix customers, Plaintiff Johnson
predicted an end to customer support for SBAdmin and demanded that the
customers cease paying Defendant Storix for the use of its software. (Doc. No. 66-1,
Huffman Decl. Ex. B, at 10-11.) In his October 7, 2016, email to one of Defendant
Storix's employees, Plaintiff Johnson declared an intention to force Defendant
Storix to "close its doors" and threatened litigation that would cause the employee
to lose his home. (Doc. No. 66-1, Huffman Decl. Ex. D, at 16.)
The parties went to trial to determine whether Plaintiff Johnson transferred
his copyright in SBAdmin to Defendant Storix in 2003 at the time of Defendant
Storix's incorporation. The Ninth Circuit recently held that, "[i]f a plaintiff has a
claim that hinges on disputed facts sufficient to reach a jury, that claim necessarily
is reasonable because a jury might decide the case in • the plaintiff's favor." VMG
Salsoul, LLC v. Ciccone. 824 F.3d 871, 887 (9th Cir. 2016). Other courts, however,
have noted that a ’"claim that is not 'objectively unreasonable' at the outset can

30a
become so if the litigant continues to pursue it when the litigant knew or should
have known that the chance of success was slim to none.'" Erickson Prods. Inc. v.
East, No. 5-13-CV-05472-HRL, 2016 WL 3951659, at *2 (N.D. Cal. July 22, 2016)
(quoting Frost-Tsuii Architects v. Highway Inn. Inc., No. 13-00496 SOM/BMK, 2015
WL 5601853, at *5 (D. Hawaii, Sept. 23, 2015)). And, in Kirtsaeng. The Supreme
Court noted that an attorneys' fees award in a copyright case is meant to give a
litigant with a meritorious case "an incentive to litigate the case all the way to the '
end." 136 S. Ct. at 1986.
Applying

these

legal

standards,

the

Court

evaluates

the

objective

reasonableness of Plaintiff Johnson's positions. On March 15, 2004, Plaintiff
Johnson signed an annual report (the "Annual Report") that stated, "2003
represented the first 10 months in the life of Storix as a Corporation. Prior to 2003,
Storix Software was a sole proprietorship. All assets from Storix Software were
transferred to Storix Inc, as of its incorporation of February 24, 2003." (Doc. No.
165-5, Trial Exhibit CD, at 35.) Plaintiff Johnson survived summary judgment by
arguing that the Annual Report did not memorialize his intent to transfer the
copyright in SBAdmin to Defendant Storix. (Doc. Nos. 56 at 12; 84 at 5-7.) See Radio
Television Espanola S.A. v. New World Entm't, Ltd., 183 F.3d 922, 927 (9* Cir.
1999) (”[T]he parties' intent as evidenced by the writing must demonstrate a
transfer of the copyright.") (citing Melville B. Nimmer & David Nimmer, Nimmer on
Copyright, § 10.03[A][2] at 10-37 (",4s with a11 matters of contract law, the essence
of the inquiry here is to effectuate the intent of the parties.")); Provenz v. Miller, 102

31a
F.3d 1478, 1489 (9th Cir. 1996) ("Cases where intent is a primary issue generally
are inappropriate for summary judgment
At trial, Defendant Storix adduced overwhelming evidence demonstrating
that the Annual Report did in fact memorialize Plaintiff Johnson's intent to transfer
the copyright in SBAdmin. For example, shortly after the 2003 incorporation, the
"clickwrap" license for SBAdmin stated, "Copyright (c) 1999-2003 Storix, Inc." (Doc.
No. 165-5, Trial Exhibit BQ, at 9.) On January 29, 2004, Plaintiff Johnson sent an
email insisting that a distributor refrain from suppressing a copyright statement in
the software reading, "Copyright (c) 13 1999-2003 Storix, Inc." (Doc. No. 165-5, Trial
Exhibit BY, at 17.) On February 17, 2004, and on March 7, 2007, Plaintiff Johnson
signed distribution agreements that stated,
"STORIX shall retain and own all right, title and interest in the
Software and Document-ation, and each copy thereof, and all
intellectual property rights with respect thereto without limiting the
generality of the foregoing, STORIX claims and reserves to itself all
right in the Software and any associated document-ation and all
benefits afforded under U.S. copyright law, all international copyright
conventions, and U.S. and international intellectual property law."
(Doc. No. 165-5, Trial Exhibits CC, DL, at 20, 54.) Significantly, on January 24,
2006, Plaintiff Johnson stated in an email to a German lawyer who was advising
Storix in a trademark dispute, "It is not entirely possible for us to completely
abolish the use of STORIX with our product, as it is the company that owns the
copyright to the product, documentation, web site and support." (Doc. No. 165-5,
Trial Exhibit CQ, at 45.) Plaintiff Johnson did not state that Defendant Storix was
using the copyright pursuant to a license. (See Doc. No. 223 at 4.)

32a
Similarly, on March 26, 2007, Plaintiff Johnson sent an email to his
employees instructing them to include language on the Storix website and software
documentation that read, "Copyright Storix, Inc. 1999-2007 USA." (Doc. No. 165-5,
Trial Exhibit DQ, at 69.) On August 20, 2010, Plaintiff Johnson sent an email to the
Oracle Corporation that stated, "The company acquiring Storix will gain the most
comprehensive disaster recovery product available for any operating system on the
market." (Doc. No. 165-5, Trial Exhibit FP, at 71.) On August 26, 2010, Plaintiff
Johnson made a submission to the IBM Corporation in which he proposed selling
Storix to IBM and stated, "IBM would gain the most comprehensive disasterrecovery product available for any UNIX or Linux operating system on the market
.... " (Doc. No. 165-5, Trial Exhibit FQ, at 76.) In summary, over the course of many
years, Plaintiff Johnson repeatedly and consistently stated to third parties that
Defendant Storix owned the copyright in SBAdmin, which was the company's most
significant asset.
When confronted at trial with the representations he made to third parties
when he sought to sell Storix, Inc., Plaintiff Johnson stated, "Yeah, and I bed. I
admit it. I bed." (Doc. No. 146, Trial Transcript Vol. II, at 203). The evidence
Defendant Storix adduced confirmed that the Annual Report meant what it said:
when Plaintiff Johnson said he was transferring "ab assets," ■ he meant "all assets," '
including the copyright. See Radio Television. 183 F.3d at 927. In the face of this
overwhelming evidence, it was unreasonable for Plaintiff Johnson to maintain that
he did not intend to transfer the copyright. Nevertheless, the Ninth Circuit has

33a
stated that, for purposes of awarding attorneys' fees, claims such as Plaintiff
Johnson's are necessarily reasonable if they hinge on disputed facts sufficient to
reach a jury. VMG Salsoul, 824 F.3d at 887. Accordingly, the Court concludes the
Plaintiff Johnson's position was objectively reasonable, at least through the
conclusion of trial, and the Court gives "substantial weight" to this assessment.4
Kirtsaeng, 136 S. Ct. at 1983; VMG Salsoul. 824 F.3d at 887.
C.

Degree of Success

The Court next considers "the degree of success obtained" by Defendant
Storix. Omega S.A., 776 F.3d at 695. According to the jury's special verdict, Plaintiff
Johnson proved that "he obtained a valid copyright for an original work of
authorship relating to SB Admin." (Doc. No. 160 at 2.) The jury answered in
Defendant Storix's favor on Plaintiff Johnson's claim for copyright infringement and
found that Defendant Storix "owns all rights to the copyrights to all versions of
SBAdmin." (Doc. No. 160.) This was not a case in which the prevailing party
achieved only a limited degree of success or won on a technicality. See Entm’t
Research Grp.. Inc, v. Genesis Creative Grp.. Inc., 122 F.3d 1211, 1231 (9th Cir.
1997) (quoting Hensley v. Eckerhart. 461 U.S. 424, 436-37 (1983)); Fantasy, Inc, v.
Fogertv, 94 F.3d 553, 560 (9th Cir. 1996). On the contrary, as the Court stated in its

4 The Court notes the tension between the Ninth Circuit's holding that cases that proceed
to trial are objectively reasonable, VMG Salsoul. 824 F.3d at 887, and the Supreme Court's
observation that an attorneys' fees award in a copyright case is meant to give a litigant
with a meritorious case "an incentive litigate the case all the way to the end." Kirtsaeng.
136 S. Ct. at 1986.

34a
judgment, the verdict was in Defendant Storix's favor. (Doc. No. 164 at 2.)
Accordingly, the degree of success factor weighs in favor of Defendant Storix.
D. Considerations of Compensation and Deterrence
The Court next considers ’"the need in particular circumstances to advance
considerations of compensation and deterrence.'" Kirtsaeng, 136 S. Ct. at 1985
(quoting Fogerty, 510 U.S. at 534 n.19). Plaintiff engaged in a variety of behavior
that should be deterred. On January 16, 2016, a month after the jury returned its
verdict against him, Plaintiff Johnson sent an email to a Storix employee asking the
employee to secretly communicate with him about what was happening inside the
company and to delete their correspondence. (Doc No. 216-2, Bonert Decl. Ex. 1, at
3-4.) That email also indicated that Plaintiff Johnson had been working on revising
the SBAdmin software and that he had a marketable product. (Id. at 3.)
Additionally, the email stated, "[Storix’ s leadership] tell you they now own the
copyright, but they don't." (Id.) In light of the jury's verdict stating that Defendant
Storix owns all copyrights to SBAdmin, Defendant Storix sent a cease and desist
letter to Plaintiff Johnson demanding that he cease copying, distribution
modification, or sale of any version of SBAdmin. (Doc. No. 216*4, Tyrell Decl. Ex. 5,
at 26-27.) On January 22, 2016, Plaintiff Johnson stated that he would not return
materials related to SBAdmin and declined to respond to the demand that he cease

35a
copying, distribution, modification, or sale of SB Admin.6

(Doc. No. 216-4, Tyrell

Decl. Ex. 8, at 31-32.)
Plaintiff Johnson's pre-judgment litigation tactics should also be deterred. It
was inappropriate for Plaintiff Johnson to tell Defendant Storix's shareholders to
"get the [expletive] out' and to attempt to coerce them into surrendering control of
the company. (Doc. No. 66-1, Huffman Decl. Ex. A, at 5-9.) It was inappropriate for
Plaintiff Johnson to demand that Defendant Storix's customers stop paying for the
use of its software in an attempt to prevent Defendant Storix from having enough
money to continue defending the lawsuit. (Doc. No. 66-1, Huffman Decl. Ex. B, at
10-11, Huffman Decl. Ex. D, at 16.) It was also inappropriate for Plaintiff Johnson
to threaten Defendant Storix's directors with the loss of their homes while he was
telling the customers to stop paying Storix to undermine the company. (Doc. No. 661, Huffman Decl. Ex. A, at 5-9, Huffman Decl. Ex. D, at 16.) This inappropriate
conduct should, be deterred. See Omega S.A., 776 F.3d at 15 695-96.
An award of attorneys' fees is justified to deter litigants in copyright cases
from interfering with the rights of a copyright holder. Scorpio Music (Black Scorpio)
S.A. v. Willis, No. 3:il-CV-1557 BTM RBB, 2015 WL 5476116, at *3 (S.D. Cal. Sept.
15, 2015). An award is also justified when a party's actions unnecessarily expand
another party's work. Love v. Mail on Sunday. No. CV05-7798 ABC (PJWX), 2007
WL 2709975, at *5 (C.D. Cal. Sept. 7, 2007), affd sub nom. Love v. Associated

5 As a result of Plaintiff Johnson's refusal, Defendant Storix has filed a motion for further
relief pursuant to 28 U.S.C. § 2202, which remains pending. (Doc. No. 216.)

36a
Newspapers, Ltd., 611 F.3d 601 (9th Cir. 2010). "[T]he need in [these] particular
circumstances to advance considerations of... deterrence" is strong, see Kirtsaeng,
136 S. Ct. at 1985, and tins factor weighs in favor of Defendant Storix's request for
attorneys' fees.
E. Frivolousness
Finally, the Court considers whether Plaintiff Johnson's case was frivolous.
Kirtsaeng, 136 S. Ct. at 1985. "[A] frivolous claim under the Copyright Act is one ,
that, in either the factual or legal assertions, is clearly baseless, involving fantastic
or delusional scenarios." Perfect 10. Inc, v. Giganews, Inc., No. CV 11-07098-AB
SHX, 2015 WL 1746484, at *8 (C.D. Cal. Mar. 24, 2015) (citations and quotation
marks omitted); see also Perfect 10. Inc, v. Visa Int'l Serv. Ass'n, No. C 04-00371
JW, 2005 WL 2007932, at *4 (N.D. Cal. Aug. 12, 2005) (citing Neitzke v. Williams,
490 U.S. 324, 325-328 (1989)). Plaintiff Johnson ultimately lost, but his claims did
not rise to the level of fantasy or delusion. See Bisson-Dath v. Sony Computer
Entm't Am. Inc.. No. CV-08-1235 SC, 2012 WL 3025402, at *2 (N.D. Cal. July 24,
2012) ("A claim is not frivolous merely because it is unsuccessful."). Indeed, the
Court previously stated that the case was not frivolous. (Doc. No. 214, February 23,
2016 Hearing Transcript, at 42.)
Although Plaintiff Johnson's case was not frivolous, this factor's weighing in
his favor is not dispositive as to Defendant Storix’s request for attorneys' fees. It
used to be that "a copyright defendant had to show that the plaintiffs claim was
frivolous or made in bad faith in order to be entitled to fees," but this is no longer

37a
the rule. Mattel. Inc, v. MGA Entm’t. Inc.. 705 F.3d 1108, 1111 (9th Cir. 2013).
Rather, frivolousness is one of many factors the Court weighs in determining
whether to award attorneys' fees. Kirtsaeng. 136 S. Ct. at 1985.
F. Award of Attorneys’ Fees
The Court concludes that, under Ninth Circuit precedent, Plaintiff Johnson's
position was objectively reasonable on the grounds that the case proceeded to
trial.6

See VMG Salsoul, 824 F.3d at 887. The Court gives "substantial weight" to

this assessment, Kirtsaeng. 136 S. Ct. at 1983, and this factor counts in Plaintiff
Johnson's favor. Nevertheless, the Court awards attorneys' fees to Defendant Storix
on the basis of the factors to which the Court gives normal weight. Plaintiff
Johnson's motivation, the degree of Defendant Storix's success, and the need to
advance considerations of compensation and deterrence all weigh heavily in
Defendant Storix's favor. The factors that count in Plaintiff Johnson's favor are his
case's lack of frivolousness and that it survived summary judgment, and the Court
concludes that these considerations are insufficient to overcome the strength of the
factors that count in Defendant Storix's favor. See Kirtsaeng, 136 S. Ct. at 1985;
Fogertv v. Fantasy, Inc., 510 U.S. 517, 534 n.19 (1994); Omega S.A. v. Costco
Wholesale Corn.. 776 F.3d 692, 695-96 (9th Cir. 2015). Accordingly, the Court
awards attorneys' fees to Defendant Storix.

6
This precedent may conflict with the Supreme Court's statement in Kirtsaeng that an
attorneys’ fees award in a copyright case is meant to give a litigant with a meritorious case
"an incentive to litigate the case all the way to the end." 136 S. Ct. at 1986. But the Court
leaves it to the Ninth Circuit to resolve this potential issue.

38a
III. Calculation of Attorneys' Fees and Costs
In calculating the fees to be awarded, the Court uses the lodestar method,
and it requires the prevailing party to submit evidence demonstrating that the fees
sought are the result of multiplying the number of hours reasonably expended by a
reasonable hourly rate. Ryan, 786 F.3d at 763. Defendant Storix has adequately
demonstrated that the rates its attorneys charged were "in hne with the prevailing
market rate of the relevant community." Carson, 470 F.3d at 891. (Doc. No. 165-2,
Tyrell Decl. ]f]f 20-21.) Accordingly, the Court declines to adjust the lodestar factor
at this time pending review of Defendant Storix's final invoices. See Carter, 757
F.3d at 869.
In considering Defendant Storix's request for attorneys' fees in light of the
Kirtsaeng factors, the Court awards Defendant Storix with the attorneys' fees it
incurred in this case on and after October 6, 2015, the date of Plaintiff Johnson’s
email that sought to convince customers to cease paying Defendant Storix so that
Defendant Storix would have insufficient funds to continue defending the lawsuit.
(Doc. No. 66-1, Huffman Decl. Ex. B, at 10-11. Huffman Deel. Ex. D, at 16.) This
award is subject to certain exceptions and other applicable considerations.
The Court excludes from this award fees associated with opposing Plaintiff
Johnson’s motions in limine to preclude the testimony of BarbaraFrederiksen-

39a
Cross.7

The award also excludes any fees associated with the mediation in which

the parties participated before the magistrate judge in the spring of 2016 because
those efforts represented the parties' good faith attempts to resolve a variety of
issues.8 Additionally, exercising the Court's discretion, the Court excludes from the
award any fees related to the briefing that Defendant Storix provided regarding
Kirtsaeng v. John Wilev & Sons. Inc., including Defendant Storix's response to
Plaintiff Johnson's brief and all declarations in support of those briefs, because that
briefing was initiated at the Court's request and potentially involved a change in
the law. (Doc. No. 215.) The Court declines at this time to award fees related to
Defendant Storix’s motion for further relief pursuant to 28 U.S.C. § 2202 because
the motion is still pending.
Defendant Storix also seeks costs not taxable under 28 U.S.C. § 1920. (Doc.
No. 165-1 at 24-25.) See Civ. L. R. 54.1. Exercising its discretion, the Court declines
to award additional costs beyond those taxable under 28 U.S.C. § 1920.9 See
Twentieth Century Fox, 429 F.3d at 885.
In light of the time that has elapsed since Defendant Storix filed its motion
for attorneys' fees, the Court cannot finalize its calculation of the fee award.
7
The jury found in Plaintiff Johnson's favor on the issue of whether he obtained a valid
copyright in SBAdmin Version 1.3. (Doc. Nos. 87, 160.)
8
In addition to the disagreements related to this case, Plaintiff Johnson remains a
minority shareholder of Defendant Storix, and the parties have also referenced state court
litigation. Accordingly, mediation had the potential to address a number of disputes.
9 The Court notes that approximately half of the costs Defendant Storix seeks are for fees
paid to its technology expert, Barbara Frederiksen-Cross, who Defendant Storix did not call
at trial. (Doc. No. 165-4, Tyrell Deel. Ex. 8, at 240-55; Doc. No. 179-2, Tyrell Deel. Ex. 18, at
2-4.) The Court has reviewed the other costs Defendant Storix seeks and also declines to
award those costs.

40a
Plaintiff Johnson has also asked for an opportunity to file an additional opposition
because briefing on this motion was temporarily put on hold pending the mediation.
(Doc. No. 194.) Due to the piecemeal manner in which this motion was briefed, the
Court orders Defendant Storix to file, within thirty days of the date of this order, a
self-contained memorandum detailing the fees it seeks consistent with this order.
That memorandum must be accompanied by all supporting invoices for time worked
from October 6, 2015, to August 15, 2016. Defendant Storix may not seek fees for
any time that was originally billed to a matter other than this matter or for any
time for which its attorneys did not charge (whether due to a "courtesy discount" of
otherwise). (See Doc. No. 165-2, Tyrell Decl. '][ 22.) Additionally, Defendant Storix
must provide a final chart detailing the fees it seeks pursuant to this order. The
chart or memorandum must account for any discounts and must specifically identify
any time entries that are excluded from the award, including entries that were
erroneously billed to this matter. (See id.) The Court also orders Defendant Storix to
specify in a chart the portion of its total fees that are related to its request for costs
and fees.10
Plaintiff Johnson may object to any specific time entries within thirty days of
when Defendant Storix files its memorandum. Defendant Storix may file an
optional response to any of Plaintiff Johnson's objections within seven days of when
Plaintiff Johnson files his objections. The Court reserves the right to further
10 Compare Baker Botts L.L.P. v. ASARCO LLC. 135 S. Ct. 2158, 2169 (2015) with Bell v.
Lantz. No. 15-2341, 2016 WL 3361557, at *3 (7tb Cir. June 17, 2016).

41a
consider the reasonableness of the fees and to exclude specific categories of fees once
it has reviewed the updated invoices.
CondusioD.
The Court grants in part and denies in part Defendant Storix's motion for
costs and 18 attorneys' fees. The Court declines to award additional costs beyond
those taxable under 28 U.S.C. § 1920. The Court awards Defendant Storix with the
attorneys' fees it incurred in district court litigation in this matter on and after
October 6, 2015. The Court excludes from this award any fees associated with
opposing Plaintiff Johnson's motions in limine to preclude the testimony of Barbara
Frederikserr Cross, any fees associated with the mediation in which the parties
participated before the magistrate judge in the spring of 2016, and any fees related
to the briefing that Defendant Storix provided regarding Kirtsaeng v. John Wiley &
Sons. Inc. Defendant Storix must file a memorandum detailing the fees it seeks
consistent with this order within thirty days of the date of this order. Plaintiff
Johnson m ay object to any specific time entries within thirty days of the date when
Defendant Storix files its memorandum. Defendant Storix may file an optional
response to any of Plaintiff Johnson's objections within seven days of when Plaintiff
Johnson files his objections.

IT IS SO ORDERED.
DATED: August 17, 2016
MARILYN L. HUFF, District Judge
UNITED STATES DISTRICT COURT

42 a
D.

District Court Second Amended Judgment
UNITED STATES DISTRICT COURT
SOUTHERN DISTRICT OF CALIFORNIA

ANTHONY JOHNSON,

Case No.: 3:i4-cv-01873H-BLM

Plaintiff,
SECOND .AMENDED
JUDGMENT
v.
IN FAVOR OF
STORIX, INC., a California corporation, DEFENDANT AND
COUNTER-CLAIMANT
STORIX,
Defendant.
INC.

On December 8, 2015, this action came before the Court for a jury trial with
the Honorable Marilyn L. Huff presiding. (Doc. No. 142.) The issues have been tried,
and on December 15, 2015, the jury rendered its unanimous verdict on the following
questions:
Has Anthony Johnson proved by a preponderance of the evidence that he
obtained a valid copyright registration for an original work of authorship relating to
SBAdmin Version 1.3?
The jury answered: Yes.
Has Anthony Johnson proved by a preponderance of the evidence that Storix,
Inc.’s SBAdmin Version 8.2 infringed the copyrighted work by copying protectable
original elements of SBAdinin Version 1.3?
The jury answered- No.

/

43a
Has Storix, Inc. proved by a preponderance of the evidence that Anthony
Johnson’s copyright infringement claim against Storix, Inc. is barred because
Anthony Johnson transferred ownership of all pre-incorporation copyrights,
including SB Admin Version 1.3, in writing from himself to Storix, Inc.?
The jury answered: Yes.
Has Storix, Inc. proved by a preponderance of the evidence that it owns all
rights to the copyrights to all versions of SBAdmin?
The jury answered: Yes.
Has Storix, Inc. proved by a preponderance of the evidence that it owns the
copyright to changes made to the SBAdmin software from the time of Storix, Inc. s
incorporation due to Anthony Johnson’s work for hire as an employee of Storix, Inc.?
The jury answered: Yes.
Has Storix, Inc. proved by a preponderance of the evidence that Anthony
Johnson's copyright infringement claim against Storix, Inc. is barred by the statute
of limitations for copyright infringement?
The jury answered: Yes.
Did Anthony Johnson prove by a preponderance of the evidence that Storix,
Inc. engaged in willful copyright infringement?
The jury answered: No.
(Doc. No. 160.)
The jury verdict was in Defendant and Counter-Claimant Storix’s favor on all
;

causes of action. Accordingly, pursuant to the jury’s findings, the Court entered

44a
judgment in favor of Defendant and Counter-Claimant Storix, and against Plaintiff
Anthony Johnson, on the causes of action of copyright infringement and declaratory
judgment. (Doc. No. 164.) The Court also awarded costs to Defendant and CounterClaimant Storix as provided by law. (Id.)
On January 25, 2016, the Clerk of the Court awarded Storix $11,414.64 in
taxable costs. (Doc. No. 178.) On August 17, 2016, the Court granted in part and
denied in part Storix’s motion for costs and fees. (Doc. No. 230.) The Court declined
to award additional costs beyond those taxable under 28 U.S.C. § 1920. (Id.) On
August 7, 2018, the Court awarded Storix attorneys’ fees in the amount of $407,778.
(Doc. No. 298.) The Court further awarded mandatory post-judgment interest at a
rate of 0.695%, compounded annually, running from November 16, 2016 until the
date of payment. (Id.) Storix has therefore been awarded a total of $419,192.64, plus
interest.
The Court enters an amended judgment in favor of Defendant and CounterClaimant Storix, and against Plaintiff Anthony Johnson, in the amount of
$419,192.64, plus postjudgment interest at a rate of 0.695%, compounded annually,
running from November 16, 2016 until the date of payment.

IT IS SO ORDERED.
DATED: October 7, 2018
MARILYN L. HUFF, District Judge
UNITED STATES DISTRICT COURT

45a
E.

Ninth Circuit Memorandum, Johnson v. S'TOBJX, INC.,
Case No. 16-55439
UNITED STATES COURT OF APPEALS
FOR THE NINTH CIRCUIT

ANTHONY J. JOHNSON,
Plaintiff-counter defendant-Appellant

i

No. 16-554391
D.C. No. 3:14-cvO 1873-H-BLM

v.
STORIX, INC., a California Corporation
Corporation, Defendant-Appelleecounter-claim ant-Appellee.

FILED DEC 19 2017
MOLLY C. DWYER
CLERK

Appeal from the United States District Court
for the Southern District of California
Marilyn L. Huff, District Judge, Presiding
Submitted December 5, 20172
Pasadena, California
Before: D.W. NELSON and REINHARDT, Circuit Judges, and STEEH,3 District
Judge.

s

Anthony Johnson (“Johnson”) appeals the judgment in favor of Storix, Inc.
(“Storix”) after a 5-day jury trial in his copyright infringement action, denial of his
summary judgment motion, denial of his motion for a new trial, and award of
attorney’s fees to Storix. We review a denial of summary judgment de novo. Perfect
10, Inc. v. CCBill L.L.C., 488 F.3d 1102, 1109 (9th Cir. 2007). For a summary
judgment ruling to be appealable after a full trial on the merits, the denial must
1 This disposition is not appropriate for publication and is not precedent except as provided by
Ninth Circuit Rule 36" 3.
2 The panel unanimously concludes this case is suitable for decision without oral argument. See
Fed. R. App. P. 34(a)(2).
3 The Honorable George Caram Steeb III, United States District Judge for the Eastern District of
Michigan, sitting by designation.

I

46 a
involve an “error of law that, if not made, would have required the district court to
grant the motion.” FBT Productions, LLC v. Aftermath Records, 621 F.3d 958, 963
(9th Cir. 2010). In reviewing a denial of a motion for a new trial, we review
interpretations of the Copyright Act de novo. See Perfect 10, Inc., 488 F.3d at 1109.
We review jury instructions de novo for statements of law and under an abuse of
discretion standard with respect to their

formulation. SEIU v. Natl Union of
i

Healthcare Workers, 718 F.3d 1036, 1047 (9th Cir. 2013). We also “review a district
court’s decision to grant or deny attorney’s fees under the Copyright Act for abuse of
discretion.” Perfect 10, Inc., 488 F,3d at 1109. We AFFIRM in part, REVERSE in
part, and REMAND.
On March 15, 2004, Johnson signed a 2003 Annual Report (“Annual Report”)
he personally drafted that memorialized the transfer of “all assets” to Storix. The
Annual Report stated: “All assets from Storix Software were transferred to Storix
Inc., as of its incorporation as of February 24, 2003.”
Johnson argues that the district court erred in denying his motion for
<■

summary judgment and motion for a new trial because the Annual Report does not
satisfy Section 204(a) of the Copyright Act as a matter of law. The Copyright Act
provides that “a transfer of copyright ownership, other than by operation of law, is
not valid unless an instrument of conveyance, or a note or memorandum of the
transfer is in writing and signed by the owner of the rights conveyed.” 17 U.S.C. §
204(a). Section 204(a) can be satisfied by an oral assignment that is later confirmed
in writing. Jules Jordan Video, Inc. v. 144942 Canada Inc., 617 F.3d 1146, 1156 (9th

47a
j

Cir. 2010); Valente-Kritzer Video v. Pinckney, 881 F.2d 772, 775 (9th Cir. 1989) (“If
an oral transfer of a copyright license is later confirmed in writing, the transfer is
valid.”).
The writing does not require any “magic words . . . Rather, the parties’ intent
as evidenced by the writing must demonstrate a transfer of the copyright.” Radio s
Television Espanola S.A. v. New World Entm't. Ltd., 183 F.3d 922, 927 (9tb Cir.
1999) (citing Melville B. Nimmer & David Nimmer, Nimmer on Copyright, §
10.03[A][2] at 10-37 [“As with all matters of contract law, the essence of the inquiry
here is to effectuate the intent of the parties.”]). As such, the writing does not “have
to be the Magna Carta; a one-line pro forma statement will do.” Id. (citations
omitted); see also SCO Grp., Inc. v. Novell, Inc., 578 F.3d 1201, 1212 (10th Cir. 2009)
(“Section 204(a), by its terms, imposes only the requirement that a copyright
transfer be in writing and signed by the parties from whom the copyright is
transferred; it does not on its face impose any heightened burden of clarity or
particularity.”).
The Annual Report qualified as a “note or memorandum” that was signed by
Johnson and memorialized a transfer of assets. See 18 U.S.C. § 204(a). Contrary to
Johnson’s assertions, the form of a signature and contemporaneity of the writing
are not dispositive. First, Section 204(a) does not necessitate the form of the
signature to be in the transferor’s personal capacity. The purpose of Section 204(a)’s
writing requirement is to prevent inadvertent transfers and fraudulent claims of
copyright ownership. Magnuson v. Video Yesteryear, 85 F.3d 1424, 1428-29 (9th Cir.

48a
1996). That concern is virtually absent when Johnson himself admitted to writing
and signing the Annual Report that memorialized a transfer of at least some assets
to his own wholly-owned company. Johnson conceded that a transfer of some assets
did occur, including computers, desks, supplies, and “whatever was necessary to
continue doing business as Storix, the same thing that I was doing as Storix
Software.”
Similarly. KonigsbergIntern. Inc. v. Rice, 16 F.3d 355 (9th Cir. 1994) does not
require a contemporaneous writing under these facts. Magnuson, 85 F.3d at 1429
n.l (stating that the issue in Konigsberg was tardiness, not contemporaneousness,
and “to the extent that some language in Konigsberg might be interpreted as
requiring a contemporaneous writing even under the facts of this case, it is clearly
dicta.”); see also Barefoot Architect, Inc. v. Bunge, 632 F.3d 822, 828 (3d Cir. 2011)
(“[Tjext of the statute . . . clearly allows for a subsequent writing to effectuate an
earlier oral transfer, it does not specify a time period during which the writing must
be consummated.”). Unlike the writing in Konigsberg, the Annual Report provided a
“reference point” to the exact date of the transfer. See id. (noting that the problem
in Konigsberg was that “it was ‘not the type of writing contemplated by [Slection
204”’ because it did not provide a “reference point for the parties’ [] disputes”).
Johnson also argues that his motion for a new trial should have been granted
because the interpretation of Section 204(a) was not an issue for the jury. But for
Johnson’s assertion that the term “all assets” did not include the copyright to SBA,
the Annual Report satisfied Section 204(a)’s writing requirement. Both parties

49a
offered extrinsic evidence to prove the meaning of “all assets.” See 2 Patry on
Copyright § 5 111 (“After-the-fact writings should serve ... as a reference point, a
springboard from whence the parties’ actual intent may be verified . . . Extrinsic
evidence of the parties’ intent may play an important role.”). Extrinsic evi dence that
is offered to interpret the terms of a writing are for the jury. Cachil Dehe Band of
Wint.un Indians of Colusa Indian Cmty. v. California, 618 F.3d 1066, 1077 (9th Cir.
2010) (When there is “extrinsic evidence supporting competing interpretations of
ambiguous contract language the court may not use the evidence to interpret the
contract as a matter of law, but must instead render the evidence to the factfinder
for evaluation of its credibility”); see Welles v. Turner Entnft Co., 503 F.3d 728, 737
(9th Cir. 2007) (remanding to district court because the intention of parties’
copyright transfer was ambiguous, “and because the contract’s interpretation may
turn on the credibility of extrinsic evidence.”). Thus, the jury was properly tasked
with interpreting the term at issue.
Given the foregoing, the jury instructions correctly stated that the term “all
assets” could include copyright ownership and that the jury could use extrinsic
evidence to interpret the meaning of the term. Therefore, the district court did not
err in denying Johnson’s motion for a new trial on the basis that the jury
instructions were an incorrect statement of law.
The district court did not abuse its discretion in awarding fees to Storix
because it gave “‘substantial weight’ to the objective reasonableness of [Johnson’s]
position but did not rely exclusively on it and thus the Supreme Court’s recent

50a
decision in Kirtsaeng v. John Wiley & Sons, Inc. does not require a different result.”
Choyce v. SF Bay Ai-ea Indep. Media Ctr., 669 F.App’x 863, 865 (9th Cir. 2016). The
district court properly relied on other factors that outweighed its findings that
Johnson’s claims were not objectively unreasonable or frivolous'- Johnson’s
motivation, the degree of Defendant Storix’s success, and the need to advance
considerations of compensation and deterrence. See Omega S.A. v. Costco Wholesale
Com., 776 F.3d 692, 695-96 (9th Cir. 2015).
While the district court did not abuse its discretion in choosing to award fees
to Storix, we find that the amount of the award was unreasonable. “Even though a
district court has discretion to choose how it calculates fees, we have said many
times that it abuses that discretion when it uses a mechanical or formulaic
approach that results in an unreasonable reward.” In re Bluetooth Headset Prod.
Liab. Litig., 654 F.3d 935, 944 (9th Cir. 2011) (citations and quotations omitted); see
also Fox v. Vice, 563 U.S. 826, 839 (2011) (“The essential goal in shifting fees ... is to
do rough justice, not to achieve auditing perfection.”). Because Johnson’s claims
were neither unreasonable nor frivolous, the amount of $543,704 was excessive. See
Kirtsaeng v. John Wiley & Sons, Inc., 136 S.Ct. 1979, 1988 (2016) (holding that
courts must give substantial weight to the objective reasonableness of losing party’s
position when awarding fees). Further, Johnson, who is now pro se, is an individual
plaintiff, rather than another company. See Lieb v. Topstone Indus., Inc., 788 F.2d
151, 156 (3d Cir. 1986) (“The relative financial strength of the parties is a valid
consideration” in determining “what amount is reasonable”). “While we do not pass

51a
judgment on what the award should be, § 505 demands that it be reasonable.”
Woodhaven Homes & Realty, Inc. v. Hotz, 396 F.3d 822, 824 (7th Cir. 2005)
(quotations omitted); see also Yellow Pages Photos, Inc. v. Ziplocal, LP, 846 F.3d
1159, 1165 (11th Cir. 2017) (“At the end of the day, the substantive reasonableness
of the amount awarded is the touchstone of our evaluation of a district court’s
award of fees and costs.”). We therefore reverse the fee award and remand to the
district court to reconsider the amount. AFFIRMED in part, REVERSED in part,
and REMANDED. Each party shall bear its own costs.

